WAIVER

Supreme Court, U.S.
FILED

JUL 3 1 2021

Supreme Court of the United State

OFFICE OF THE CLERK

No. 21-22
Bo Peng
(Petitioner)

v.

F.M. Tarbell Co.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
IX I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
0 I am a inernber of the. Bar of ihe'SUPreme Court of the Viiited States. (Filing Instructions:
File a signed Waiver in the Supreme CoUrt Electronic Filing System. The system will
prompt you to enter your appearanee first.)
CT I am notiresently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the ,original signed form
to: Supreme Co , Attn: Clerk's Office, 15irst Sjreet, NE, Washington, D.C. 20543).
/•
C-

Signature
Date: July 28, 2021
(Type or print) Name

Benjamin K. Griffin

310 Mr.
Firm GRIFFIN, P.C.

0 Ms.

0 Mrs.

0 Miss

Address 19200 Von Karman Ave, Suite 400
I
City & Statervine,
CA'
,
Phone (949) 259-5856'

Zip 92612-8512
Email BGriffin@gpclegal.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE. BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc:

RECEIVED
AUG 1 0 2021

RUWWW1r

